March 29, 2021
Case No:

IN THE
SUPREME COURT OF THE UNITED STATES
MICHAEL T BROOKS
Petitioner
vs
US COURT OFAPPEALS FOR THE NINTH CIRCUIT CASE #19-35547
Centene Corporation
dba Agate Resources
dba Agate Health Care (aka Agate Healthcare)
dba LIPA (aka/dba Lane Individual Practice Association
(aka.dba Lane Independent Physicians Association
dba Trillium Community Health Program
US DISTRICT COURT FOR THE DISTRICT OF OREGON: 6:15-cv-00983
Brooks v. Agate Resources, et al
Respondents
Re. Petition for Writ of Certiorari

Certificate Of Service
Certificate of Compliance

I, Michael T. Brooks, do swear or declare that on this date, March 29, 2021, as required
by Supreme Court Rule 29 I have served the enclosed MOTION TO PROCEED IN FORMA
PAUPERIS, WRIT OF CERTIORARI, AND MOTION TO ACCEPT EXHIBIT each party’s
counsel, and on every other person required to be served by depositing an envelope or box
containing the above documents in the United States mail properly addressed to

Page 1 of 2

each of them

and with first-class postage prepaid. Brooks was told by the clerk’s office of the US Court of
Appeals for the Ninth Circuit to NOT serve them.
The Writ of Certiorai complies with the instructions Brooks was given. The misc.
required pages are 13 pages long and contain a total of 4,546 words. The main section, from “In
The Supreme Court....” Is exactly 40 pages long and contains exactly 17,319 words in total.
These counts are inclusive of headers, references, footnotes and

comments.
Petitioner is disabled and requested assistance in writing this, which evidently cannot be

granted. Petitioner has a spinal injury with has cost him the use of the left hand and arm. The
damage to the mylin sheath has led to multiple sclerosis and a series of heart attacks due to
damage to the Vegas nerve. Brooks had a cardiac event on March 13,

2021, that resulted in the

loss of consciousness. That resulted in the lost the work on this

case. Brooks recovered most of
that from rough drafts he scanned and used a PDF to Word converter. Brooks is only capable of
sitting up for 10 to 15 minute intervals before fainting, so his ability to work is severely
impaired. Please excuse the any spelling or punctuation errors
Served Party 1st
Reilley D. Keating
Stephan H. Galloway
Rachel C. Lee
Attorney’s for the Centene Corporation dba Agate Resources aka “Agate Health Care”
Stoel Rives, LLP
760 SW Ninth Avenue, Suite 3000
Portland, Oregon 97205-2584

I declare under penalty of perjury that the forgoing is true and correct

k
Michael T. Brooks
Plaintiff in Pro Se

\

Page 2 of 2

